 Pension Benefit Guaranty Corporation
      Office of Inspector General
            Evaluation Report




Evaluation of PBGC’s Strategic Preparations
      for a Potential Workload Influx




             November 16, 2010
                                 EVAL 2011-1/ PA-09-65
                             Pension Benefit Guaranty Corporation
                                                             Office of Inspector General
                                             1200 K Street, N.W., Washington, D.C. 20005-4026



                                                                                November 16, 2010

TO:             Joshua Gotbaum
                Director
                Pension Benefit Guaranty Corporation

FROM:           Joseph A. Marchowsky
                Assistant Inspector General for Audit

SUBJECT:        Evaluation of PBGC’s Strategic Preparations for a Potential Workload
                Influx Report No. 2011-1 /PA-09-65


This report describes the findings identified during our evaluation of PBGC’s strategic preparations
to handle a potential influx of benefit plans. We initiated this evaluation in response to a request
from Senator Herbert Kohl, the Chairman of the U.S. Senate Special Committee on Aging. The
Senator noted reports that some large defined benefit plans may be suffering financial distress and
his concern with ensuring that PBGC management was taking steps to strategically prepare the
Corporation for the possible influx of such plans and their participants.

Our objective was to assess the plans and actions developed and implemented by PBGC
management to enable the Corporation to prepare for a potential influx of defined benefit pension
plans.

Our report described the need for PBGC to enhance its ability to deal with a potential influx of
pension plans. Our recommendations include the development of a strategic plan and associated
tactics for ensuring that the Corporation can continue to meet its mission under a range of possible
workload scenarios, ensuring that the Corporation’s planning efforts reflect the importance of
contractors to PBGC and ensuring the workability of plans and making necessary refinements to
position PBGC for readiness to address an increased workload.
The Chief Operating Officer’s responded to our report, noting PBGC’s conclusion that the risk of a
large influx of plans is much lower now, than the level anticipated in fiscal year 2009. Further, the
response stated management’s belief that the resources needed to address the report’s
recommendations would be better used in other higher priority areas. Accordingly, instead of
implementing OIG’s recommendations as written, PBGC proposed the creation of a Large Influx
Working Group (LIWG) Planning Document as a basis for alternative actions to address the
recommendations. For four of the report’s five recommendations, it will be necessary for us to
review the LIWG Planning Document before we can determine whether PBGC’s proposed
approach will adequately address the report’s findings. Additional detail about the Corporation’s
approach to the LIWG will allow us to determine whether we can agree with PBGC’s proposed
Joshua Gotbaum
November 16, 2010                                                                                2
management decision. To facilitate resolution of these recommendations and this report, within the
next 90 days, please provide a status update of the actions taken and anticipated timeframes for
development of the LIWG Planning Document. Please note that OMB Circular No. A-50 requires
resolution within a maximum of six months after issuance of a final report.
We would like to take this opportunity to express our appreciation for the cooperation we received
while performing this evaluation.
Executive Summary

This report presents the results of our evaluation of the plans and actions developed by Pension
Benefit Guaranty Corporation (PBGC) management to prepare for a potential influx of defined
benefit pension plans. The recent global economic downturn has increased the risk of distress
occurring in PBGC monitored industries. As a result, Congress became concerned about the impact
such an event could have on PBGC’s operations, workload capacity, and financial condition. The
PBGC Office of Inspector General (OIG) received a request from Senator Herbert Kohl, Chairman
of the U.S. Senate Special Committee on Aging, to review PBGC’s planning efforts to strategically
prepare for the potential influx of pension plans. This report presents the results of our review.

While PBGC did not prepare an overall strategy for addressing a potential influx of pension plans,
we found that the Corporation did complete numerous planning exercises. Our review focused on
the PBGC-wide initiative -- a data call with results submitted to the PBGC Executive Management
Committee (EMC) and further refined by the EMC. We also evaluated the actions of the Benefits
Administration & Payment Department (BAPD). Unlike other departments, BAPD independently
completed several strategic planning exercises in which feedback was sought from other
departments within PBGC. These reviews were intended to address only BAPD’s ability to meet its
own objectives and were not designed to serve as a Corporate-wide readiness assessment. We
included other planning documents, such as the Human Capital Plan, in our review as necessary to
understand the range of PBGC’s planning activities.

Based on the results of our evaluation, we concluded that PBGC should enhance its ability to deal
with a potential influx of pension plans by:

   •   Developing a coordinated approach for addressing PBGC’s influx preparedness, to include
       a strategic plan and associated tactics for ensuring that PBGC can continue to meet its
       mission under a range of possible workload scenarios;
   •   Ensuring that plans reflect the importance of contractors to PBGC’s strategic approach;
   •   Analyzing lessons learned from the surge in volume that occurred during Fiscal Year (FY)
       2002-2005, which contributed to a number of PBGC’s current IT issues, and preparing ways
       to mitigate the risk of similar future problems; and
   •   Ensuring the feasibility of plans and making necessary refinements to position PBGC for
       readiness to address an increased workload, including the development of plans to expand
       existing contracts and a capacity management plan to ensure systems are ready to support
       increased network and bandwidth usage.

The Chief Operating Officer responded to our report, noting PBGC’s conclusion that the risk of a
large influx of plans is much lower now than anticipated in fiscal year 2009. Further, the response
stated management’s belief that the resources needed to address the report’s recommendations
would be better used in other higher priority areas. Accordingly, instead of implementing OIG’s
recommendations as written, PBGC proposed the creation of a Large Influx Working Group
(LIWG) Planning Document as a basis for alternative actions to address the recommendations.
OIG will be able to determine whether PBGC’s response is sufficient for an agreed-to management
decision when PBGC completes its LIWG Planning Document and OIG has had an opportunity to
review the specific elements of the proposed document.

OIG Report Eval 2011-1/ PA-09-65                                                                    1
Developing a coordinated approach for addressing PBGC’s preparedness for an influx.

Although PBGC developed a listing of the additional resources that might be required in the event
of an influx of additional pension plans, the Corporation did not consider the inter-relationships of
the various PBGC business units in its planning and did not develop a coordinated approach for use
in the event of a workload surge. Agency management initiated a data call request in which each
department independently identified the resources needed, based on two volume scenarios: 150,000
new participants annually and 250,000 new participants1 annually. The data call was made to all
departments at the same time and did not include details of how PBGC planned to address the
additional volume. As a result, the data submissions from various PBGC departments were
inconsistent and, in some cases, illogical. For example, the estimate of additional laptops computers
needed was made independently from estimates of additional employees or contractors to be
brought on board.

PBGC’s estimates of additional resources did not take into consideration opportunities for changes
in tactics in the event of a workload surge. That is, documentation did not demonstrate that PBGC
had considered whether alternatives to current work processes might allow the Corporation to
expand its capacity in new ways. Instead, PBGC leadership advised that they viewed the planning
exercise as relevant only to a particular point in time. Once it was determined that the major auto
makers’ pension plans were not at imminent risk for termination, PBGC considered that the
planning exercise was no longer important. Leadership advised that it was impractical to develop a
“playbook” for future events, given that a workload surge could present itself in many differing
ways.

Based on our review, we concluded that PBGC’s decision to cease its planning activities was short-
sighted at best. PBGC should arm itself with a well thought-out strategy for addressing surges in
workload volume, as well as a variety of workable tactics that could be used under various situations.
While the specific details of any such approach might not be readily determinable before the nature
and volume of terminated plans is known, an overall coordinated approach should be developed to
ensure that PBGC leadership is prepared to address workload surges under a variety of different
scenarios. Further, unless the Corporation completes its readiness exercise and develops necessary
tactics, PBGC leadership will not know whether the agency is prepared to meet the challenge of a
major influx.

Ensuring that plans reflect the importance of contractors to PBGC’s strategic approach

PBGC’s planning for a workload surge does not reflect the importance of contractors in achieving
the agency mission. The Corporation’s informal plan for handling an influx depends heavily upon
expanding the contract workforce to handle the increased workload. However, even though nearly
two-thirds of the people doing the work of PBGC are contractors, little or no planning has been
done to address the strategic role that contractors currently play or the expanded role that
contractors might play in the event of a workload surge. PBGC’s Human Capital Plan addresses the

1
 For budgeting purposes, on an annual basis, PBGC generally assumes 100,000 participants will be added to the existing
workload.


OIG Report Eval 2011-1/ PA-09-65                                                                                    2
role of the federal employee in completing the work of the Corporation, but no similar analysis has
been developed to recognize the key role of PBGC’s contract work force.

The need to include the contractor workforce in PBGC’s strategic planning is widely known. GAO
reported that contractors play a significant role in PBGC’s overall workforce, covering a wide range
of services, such as actuarial, information technology, and administrative services. GAO
recommended that

         …the Director of PBGC revise its strategic plan and, in drafting the corporation’s
         Human Capital Strategic Plan, reflect the importance of contracting and PBGC’s use
         of contractors, project its vision of future contractor use, and better link staffing and
         contracting decisions at the corporate level.

Based on the results of our review, we found that management should acknowledge the important
role of contractors for handling an influx of plans by specifically incorporating their role and critical
functions as part of surge preparedness and strategic planning.

Analyzing lessons learned from previous workload surges and mitigating risks of recurrence.

PBGC did not complete a comprehensive “lessons learned” analysis after a previous workload surge
of over 700,000 participants that became PBGC’s responsibility during FY 2002-2005. Although the
Office of Information Technology (OIT) analyzed the impact of individual plans on IT operations,
the analysis did not determine the impact of the previous influx on system infrastructure, design,
configuration, storage capacity, and other strategic areas. A significant number of PBGC’s current
IT infrastructure and configuration weaknesses are a direct result of decisions made during the midst
of the previous influx; in many instances, immediate agency mission needs superseded proper IT
planning, with results that continue to impede PBGC’s IT system effectiveness and security.

Ensuring the feasibility of plans and making refinements as needed to ensure readiness to address a workload surge.

PBGC officials described their informal plans for addressing a potential increase in workload.
However, based on our review, PBGC did not ensure feasibility or coordinate the plans with other
stakeholders who were necessary to the success of the plans. As a result, PBGC is unaware whether
refinements or other changes to the plans are needed to ensure that PBGC is prepared to continue
meeting its statutory mission.

Although PBGC plans to rely heavily on contractors in the event of a workload surge, PBGC
officials did not vet the feasibility of those plans with the department responsible for issuing the
necessary contracts. That is, PBGC did not consult with the Procurement Department to assess the
specific actions necessary to enlist contract assistance in processing an influx of pension plans.
Among the contracts PBGC would need to modify are those for actuarial services, investment
management, and document management. In planning for the influx, PBGC leaders made
assumptions that contracts could be easily modified, but did not consult the Procurement
Department to confirm their assumptions. Failure to consider the needs and requirements of the
Procurement Department could prevent or delay the use of contractors in the event of a workload
surge.



OIG Report Eval 2011-1/ PA-09-65                                                                                      3
PBGC has not adequately assessed network capacity to determine whether plans for continued
reliance on IT systems are feasible in the event of serious workload surge. OIT has been operating
at an “ad hoc” level of IT performance and capacity management, in which servers and storage were
added only to support a current project without considering the long-term strategic implications.
Within the last two years PBGC has recognized these limitations – and has begun the process of
upgrading aging infrastructure and expanding storage capacity of the network. Although PBGC has
taken initial steps to address network capacity, a comprehensive network capacity plan has not been
developed.

A strategic approach to ensuring PBGC readiness would help prepare the Corporation to deal with
future surges in volume, if such surges arise. However, even if no such surge occurs, we believe that
implementation of the recommendations included in this report would enhance PBGC’s
effectiveness and accountability for addressing its current workload.




OIG Report Eval 2011-1/ PA-09-65                                                                    4
Table of Contents 

Executive Summary ............................................................................................................................................................ 1
Background and Objectives .............................................................................................................................................. 6
    Background ..................................................................................................................................................................... 6
    Objective .......................................................................................................................................................................... 8
Findings and Recommendations ...................................................................................................................................... 9
Section A - PBGC Should Take a Strategic Approach in Assessing its Preparedness for an Influx. ................... 9
    Finding 1 - PBGC planning for an influx of pension plans can be improved. .................................................. 10
    Finding 2 – PBGC should explicitly address the role of contractors in its future plans. ................................. 12
    Finding 3 - PBGC should leverage lessons learned after a prior workload surge. ............................................ 14
    Recommendation 1: ..................................................................................................................................................... 16
    Recommendation 2: ..................................................................................................................................................... 16
    Recommendation 3: ..................................................................................................................................................... 17
Section B - Ensuring the Feasibility of Plans and Developing Tactics to Address an Increased Workload ..... 18
    Finding 4 – Plans for expanding the use of contractors should be coordinated with the Procurement
    Department. .................................................................................................................................................................. 18
    Recommendation 4: ..................................................................................................................................................... 19
    Finding 5 – PBGC plans for a workload surge should include an assessment of network capacity .............. 19
    Recommendation 5: ..................................................................................................................................................... 20
APPENDIX A - Scope and Methodology. .................................................................................................................. 22
APPENDIX B – Federal vs. Contract Employees ..................................................................................................... 24
APPENDIX C– OIG Contract Audit Reports. .......................................................................................................... 25
APPENDIX D– PBGC Response. ............................................................................................................................... 26 




OIG Report Eval 2011-1/ PA-09-65                                                                                                                                                       5
Background and Objectives

Background

The Pension Benefit Guaranty Corporation (PBGC) is a federal government corporation established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA), as amended, 29
USC §§ 1301-1461 (ERISA sections 4001-4402). PBGC’s mission is to protect the pensions of
nearly 44 million American workers and retirees in more than 29,000 private defined benefit pension
plans. Under section 4022(a) of ERISA, these pension plans ensure a specified monthly retirement
benefit, usually based on salary or a stated dollar amount and years of service. PBGC guarantees
these retirement benefits subject to the limitations mandated by section 4022(b) of ERISA.

PBGC receives no funds from general tax revenues; instead PBGC is financed largely by insurance
premiums paid by companies that sponsor defined benefit pension plans, by investment income and
assets from terminated plans. PBGC has been in a deficit position (where current and future
commitments to participants exceed resources) for a number of years. Inadequate minimum
contributions, inadequate insurance premiums, employer shift from defined benefit pension plans to
defined contribution pension plans and insufficient funding of terminated plans are factors
contributing to the deficit. Between the end of fiscal years 2008 and 2009, the deficit in PBGC’s
single-employer insurance program doubled in size from $10.7 billion to $21.1 billion. In FY 2010
the single-employer program’s net position declined by $.52 billion, increasing the programs deficit
to $21.59 billion.

PBGC currently pays monthly retirement benefits to nearly 744,000 retirees in 4,001 pension plans.
Including those who have not yet retired and participants in multiemployer plans receiving financial
assistance, PBGC is responsible for the current and future pensions of approximately 1,476,000
people. Fiscal Year (FY) 2009 presented a significant workload for PBGC, during which the
Corporation assumed responsibility for approximately 201,000 new pension plan participants.

PBGC’s business process generally begins in the Department of Insurance Supervision and
Compliance (DISC) with the identification of a pension plan that is likely for
termination/trusteeship. DISC monitors large and high risk pension plans and then makes
recommendations to the Trusteeship Working Group (TWG), which is responsible for determining
whether to terminate/trustee specific pension plans.

PBGC makes use of a large case working group (LCWG) in dealing with plans or groups of plans
with 10,000 participants or $5 million or more of unfunded benefit liability (UBL). This cross
functional group comprises representatives from DISC, Office of the General Council,
Communication and Public Affairs Department, Financial Operations Division, Investment
Accounting Branch, Trusteeship Processing Division and a Large Case Coordinator. Although the
LCWG represents a strategic approach with respect PBGC specific plans or groups of plans, the
LCWG does not constitute a strategic approach to PBGC overall management of a workload surge.

After a plan has been trusteed, BAPD is responsible for performing plan and individual benefit
valuations and administering benefit payments. BAPD’s overriding goal is to continue paying
benefits to plan participants. Initially, an estimated amount is paid to each participant until a final

OIG Report Eval 2011-1/ PA-09-65                                                                          6
benefit determination can be made. Calculating plan participants’ final benefits usually takes several
years. In addition to administering benefit payments to plan participants, BAPD:

   -   Manages PBGC’s pension plan termination program,
   -   Determines the value of plan assets (including unpaid contributions) and liabilities of the
       terminated plans,
   -   Provides participant services for trusteed plans, and
   -   Provides operational actuarial support for selected cases.

For budgeting purposes, on an annual basis, PBGC generally assumes 100,000 participants will be
added to the existing workload. The recent global economic downturn caused financial hardships
for many businesses in a number of different sectors, which directly impact PBGC’s operations and
forecasting. The risk of numerous pension plans simultaneously terminating could cause a domino
effect requiring PBGC to assume a large number of participants in a short period of time.
Conversely, if the economy is strong, PBGC may only assume twenty or forty thousand participants
in a given year (see the chart below).

The number of plans that PBGC assumes on a year-to-year basis fluctuates based on numerous
factors, mainly the economic strength of the country. PBGC experienced an influx of pension plans
from FY 2002-2005, when PBGC became responsible for paying more than 700,000 participants
from plans that were terminated and trusteed, primarily from the airline and steel industries (see the
chart on the following page). PBGC is experiencing one of the busiest periods in its history. In FY
2009, PBGC terminated and trusteed 129 plans with more than 200,000 participants. During FY
2010, PBGC assumed responsibility for 99,000 additional workers and retirees in 163 failed plans.


        ParticipantsTrusteed by PBGC by Fiscal Year
  300,000
                                                     265,238
  250,000
                                      197,779                                   200,897
  200,000                       179,403
                                              139,342
  150,000

                          90,960                                                       99,000
  100,000
             55,573                                                  58,434
                                                            44,708
   50,000           27,192                                                21,171

        -
              1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010
                                      Fiscal Year



OIG Report Eval 2011-1/ PA-09-65                                                                     7
                  Plans Trusteed by PBGC by Fiscal Year
    200
                                             178
    180
                                                                                    163
    160                               152
            134                144                 138
    140                                                                       129
                                                                115
    120                  103
                   99
    100
                                                          86
     80                                                                 74

     60
     40
     20
      0
            1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010
                                      Fiscal Year


In a letter to the PBGC Inspector General, Senator Herbert Kohl, the Chairman of the U.S. Senate
Special Committee on Aging, noted his concern regarding reports that some large defined benefit
plans may be on the brink of financial distress. While troubled by PBGC’s deficit position, he noted
a more immediate concern with ensuring that PBGC management is taking steps to strategically
prepare the Corporation for the possible influx of such plans and their participants. To this end, he
requested the Office of Inspector General to continue its ongoing monitoring of PBGC’s planning
efforts and to make recommendations for corrective action where needed. This report presents the
results of our review.

Objective

Our objective was to assess the plans and actions developed and implemented by PBGC
management to enable the Corporation to prepare for a potential influx of defined benefit pension
plans with large numbers of participants. Specifically, we examined:

       1) the steps PBGC management took to prepare for the possible increase in the number of
          terminated pension plans;
       2) the extent to which an increase in the number of terminated pension plans presented
          challenges, if any, for PBGC management in relation to the termination of pension plans
          and the benefit delivery processes;
       3) the effectiveness of PBGC processes to identify the requisite resources, such as human
          capital; and
       4) the steps PBGC management engaged to ensure adequate customer service and effective


OIG Report Eval 2011-1/ PA-09-65                                                                    8
             operations of multiple Field Benefit Administration (FBA) offices in the event of the
             pension plan terminations.

This evaluation was performed in accordance with standards established by the President’s Council
on Integrity and Efficiency Quality Standards for Inspections, January 2005, and in accordance with the
Office of Inspector General (OIG) policies and procedures, specifically the OIG Audit Manual.


Findings and Recommendations
Section A - PBGC Should Take a Strategic Approach in Assessing its Preparedness for a
Workload Influx.

Although PBGC developed a listing of the additional resources that might be required in the event
of an influx of additional pension plans, the Corporation did not consider the inter-relationships of
the various PBGC business units in its planning and did not develop a coordinated approach for use
in the event of a workload surge. Agency management initiated a data call request in which each
department independently identified the resources needed, based on two volume scenarios: 150,000
new participants annually and 250,000 new participants2 annually. The data call was made to all
departments at the same time and did not include details of how PBGC planned to address the
additional volume. As a result, the data submissions from various PBGC departments were
inconsistent and, in some cases, illogical. For example, the estimate of additional laptop computers
needed was made independently from estimates of additional employees or contractors to be
brought on board.

PBGC’s estimates of additional resources did not take into consideration opportunities for changes
in tactics in the event of a workload surge. That is, documentation did not demonstrate that PBGC
had considered whether alternatives to current work processes might allow the Corporation to
expand its capacity in new ways. Instead, PBGC leadership advised that they viewed the planning
exercise as relevant only to a particular point in time. Once it determined that the major auto
makers’ pension plans were not at imminent risk for termination, PBGC considered that the
planning exercise was no longer important. Leadership advised that it was impractical to develop a
“playbook” for future events, given that a workload surge could present itself in many differing
ways.

 Based on our review, we concluded that PBGC’s decision to cease its planning activities was short-
sighted at best. PBGC should arm itself with a well thought-out strategy for addressing surges in
workload volume, as well as a variety of workable tactics that could be used under various situations.
While the specific details of any such approach might not be readily determinable before the nature
and volume of terminated plans is known, an overall coordinated approach should be developed to
ensure that PBGC leadership is prepared to address workload surges under a variety of different
scenarios. Further, unless the Corporation completes its readiness exercise and develops necessary
tactics, PBGC leadership will not know whether the agency is prepared to meet the challenge of a
major influx.
2
 For budgeting purposes, on an annual basis, PBGC generally assumes 100,000 participants will be added to the existing
workload.


OIG Report Eval 2011-1/ PA-09-65                                                                                    9
Finding 1 - PBGC planning for an influx of pension plans can be improved.

PBGC needs to develop specific strategies and tactics to be used in the event of a serious workload
surge. To date, the Corporation has generally kept its planning activities simplistic and linear.
PBGC executive leadership eschewed comprehensive planning activities in part due to a belief that a
“playbook” approach, explicitly detailing the steps to be taken, is impractical. To their view, because
a workload surge could take many varied and unpredictable forms, the only practical option was
reliance on the Corporation’s ability to develop and implement an “ad hoc” approach, in the event
that a workload surge materialized. Based on our review, we identified a number of specific
activities that the Corporation could take to enhance its readiness in the event of a workload surge.
These activities could be best implemented as part of an overall strategic plan, an approach that we
consider to be a best practice. However, even in the absence of a comprehensive Workload Surge
Strategy Plan, implementing the recommendations in this report would help position the
Corporation to deal with a significant workload surge.

PBGC’s plans should reflect interdependencies between organizational units.

PBGC developed its plan to address a potential workload surge without considering how decisions
and actions to be taken by PBGC’s core business functions (e.g, DISC and BAPD) would affect or
be affected by the decisions and actions of PBGC’s support functions (e.g., the Office of
Information Technology (OIT), Facilities and Services Department (FASD), Human Resources
Department (HRD), and the Procurement Department (PD)). PBGC developed estimates of
resource needs based on changes in the number of participants – a linear approach – but did not
refine the results by considering potential changes in tactics that might occur in the event of a
workload surge. The resulting disconnect between the actions of core and support functions
reduced the usefulness of PBGC’s resource planning.

In an attempt to plan for the potential influx of participants, PBGC conducted a data call based on
two scenarios: an influx of 150,000 participants and an influx of a jumbo plan with 250,000
participants. The data call was initiated by the EMC to identify the resources PBGC would need to
handle a large influx of pension plans and participants beyond the assumed 100,000 participants.
Specific concerns related to the number of participants the agency would assume if a major
automaker or a number of auto parts dealers did not survive the economic downturn.

The data call requested PBGC departments to identify their need for facilities, equipment, services,
and human capital (federal and contractor employees) based on the two aforementioned scenarios
(150,000 and 250,000 participants). Support functions in PBGC were included in the same data call
with core functions.

Based on our review, the support functions reported their estimates of resource needs based on an
assumption that the needs would be linear; that is, if twice as many participants were to be
processed, then twice as many resources would be needed to do the processing. We did not find
evidence that PBGC had considered potential economies of scale or the potential effect of any
changes in methods that might occur, in the event of a workload surge. PBGC’s approach would
have been better if the Corporation had identified the various tactics or options that might be used
in the event of a workload surge and then identified the resources associated with each of the
various options. This multi-level or waterfall approach would likely result in better estimates of

OIG Report Eval 2011-1/ PA-09-65                                                                    10
resource needs. More importantly, identification of the relationships between the core and support
functions could lead to improvements in PBGC efficiency and effectiveness, regardless of whether a
workload surge ever occurs.

We note that one PBGC department made a more complete effort to begin preparing for the
potential influx. BAPD independently completed several strategic planning scenarios and sought
input from other departments within PBGC. However, these reviews were not designed to serve as
the Corporation-wide readiness assessment. BAPD conducted working groups, workload planning
meetings and “What if…” scenarios. The exercises completed by BAPD paint a clearer and more
realistic picture of how the agency would handle an influx of plans. However, the results and action
items were not shared with all levels of PBGC management, and therefore cannot be relied upon as
the agency-wide plan to handle an influx of participants.

PBGC’s plans should be based on consistent, documented methodologies.

The data call did not include specific instructions regarding how to develop estimates. During our
evaluation of the data call submissions, we identified inconsistent methodologies in calculating
estimated resources. For example, we found inconsistencies in estimated salary amounts; specifically
departments used varying salary scale amounts for the same grade, used different overhead
percentages, or did not include overhead at all. Further, not all departments maintained records of
methodology and basis for resource requests. For example, OIT could not provide support for the
need for approximately 1,000 laptop computers requested. The lack of sufficient guidance or
instruction for the data call produced inconsistent results, with inaccurate projections of PBGC’s
funding and resource needs to handle the potential influx. The inconsistent results occurred because
the data call scope was not well defined and the instructions provided to departmental management
lacked adequate and specific details.

PBGC’s plans for a workload surge should support the Corporation’s overall strategic
planning process.

PBGC leadership explained their view that the planning exercise was relevant only to a specific point
in time. Agency planning ceased after it was determined that termination of the major auto makers’
pension plans was no longer an imminent possibility. In response to our inquiries, PBGC
management stated that resources should be dedicated elsewhere; the planning that had already
occurred had been specific to the auto makers and was never intended to serve as an overall
corporate-wide readiness assessment. As the former Chief Administrative Officer stated, “it was a
mini-budgeting exercise.”

Our review confirmed that PBGC had taken a “point in time” approach to planning for a potential
influx of participants. We found little evidence that the strategic and long-term benefits such a
planning exercise could provide had been considered. Although agency officials initiated the data
call process and discussed a number of different scenarios to obtain additional staff, our review
showed that PBGC leadership did not leverage these planning activities. PBGC had an opportunity
to build on the “point in time” planning exercise in a variety of ways. For example, a more strategic
planning process (in lieu of the “point in time” approach) might have resulted in decisions about
options for obtaining additional staff, to include positioning PBGC to make use of tactics such as
the use of rehired annuitants, the career intern program or expansion of the existing federal FTE
(full-time equivalent) process.
OIG Report Eval 2011-1/ PA-09-65                                                                   11
PBGC plans should prepare the Corporation for future workload surges.

Agency officials should continue and enhance planning efforts. The threat of a significant surge in
workload for PBGC is far from over. As GAO reported earlier this year,3 automakers are facing a
number of uncertainties in the automotive industry and most notably in their abilities to meet future
pension obligations:

        The new GM and the new Chrysler that were established during each company’s
        bankruptcy process in the summer of 2009 assumed sponsorship for all the old
        companies’ U.S. defined benefit plans. Although the pension plans have been
        maintained, their future remains uncertain. According to current company
        projections, large contributions may be needed to comply with federal pension
        funding requirements within the next 5 years.

        As new companies, GM and Chrysler have streamlined their operations and have
        substantially less debt than their predecessors; nevertheless, the future viability of the
        companies and their pension plans is unclear.

        …the funded status of GM and Chrysler pension plans has been declining since
        2008. This is due, in part, to the economic downturn, which has brought significant
        financial stress to many sectors of the economy, including the auto industry. The
        significant decline in the stock market decreased the value of certain assets (such as
        equities) and increased the value of others (such as bonds), while low interest rates
        tended to increase liabilities.

Other sectors of the economy also present a potential challenge to PBGC’s ability to deal with a
surge in workload. PBGC is listed in GAO’s High Risk list, in part, because it continues to be
“exposed to the threat of terminations of large underfunded pension plans sponsored by financially
weak firms4.”

The future is difficult to predict. PBGC acknowledged in its FY 2010 Annual Report5 issued earlier
this month that no reasonable estimate could be made of 2011 terminations. That uncertainty,
together with the exposure noted by GAO, provides sufficient reason for PBGC to expand and
enhance its planning for possible workload surges.


Finding 2 – PBGC should explicitly address the role of contractors in its future plans.

PBGC has not recognized the significant role of contract staff in its plans for a potential influx of
terminated pension plans. PBGC’s Human Capital Strategic Plan addresses the federal workforce
but is largely silent with respect to PBGC’s contract workforce. The omission is significant, given
that the Corporation utilizes nearly two contract staff for every federal employee (see Appendix B

3
  “Troubled Asset Relief Program Automaker Pension Funding and Multiple Federal Roles Pose Challenges for the
Future,” GAO 10-492 April 2010.
4
  “GAO Strategic Plan 2010-2015” GAO-10-599SP
5
  “Pension Benefit Guaranty Corporation FY 2010 Annual Report,” November 12, 2010.

OIG Report Eval 2011-1/ PA-09-65                                                                           12
for detailed chart) and has relied on contractors to supplement its workforce since the mid-1980s.
As a result, PBGC lacks a strategic approach for managing its reliance on a contract workforce.

PBGC management has acknowledged the difficulty in anticipating workloads due to the
unpredictable nature of the domestic and the global economies. Expanding or reducing the
contractor workforce is one tool PBGC uses to respond to changes in economic conditions. When
OIG asked how PBGC would handle a potential influx of plans, PBGC officials cited their intent to
rely on contract staff and identified multiple contracts for labor in diverse areas such as actuarial
services, investment management, customer contact centers, and document management.

The U.S Government Accountability Office (GAO) “Framework for Assessing the Acquisition
Function at Federal Agencies” (GAO-05-218G, September 2005), identified human capital as one of
the four significant cornerstones in promoting an efficient, effective, and accountable acquisition
function. Moreover, GAO states that a federal agency’s strategic human capital plan should address
the use of contractors that provide commercial-type services because of increased reliance on
contractors in achieving the agency’s mission and goals.

Contracting is critical to PBGC’s operations and mission objectives. PBGC’s workforce is unique in
that contractors comprise nearly two-thirds of the agency’s human capital. However, PBGC’s influx
and strategic planning documents do not reflect the importance of contractors in achieving the
agency’s mission.

In August 2008, GAO reported on its review of PBGC’s contracting practices, “Some Steps Have
Been Taken to Improve Contracting, but a More Strategic Approach is Needed” (GAO 08-871,
August 2008). GAO found that contractors play a significant role in PBGC’s overall workforce,
covering a wide-range of services, such as actuarial, information technology and administrative
services. Based on the results of its review, GAO recommended that:

       …the Director of PBGC revise its strategic plan and, in drafting the corporation’s
       Human Capital Strategic Plan, reflect the importance of contracting and PBGC’s use
       of contractors, project its vision of future contractor use, and better link staffing and
       contracting decisions at the corporate level.

PBGC agreed with most of GAO’s recommendations but disagreed with incorporating more detail
in its strategic planning documents. PBGC’s response to GAO stated that the strategic plan was
sufficient and comprehensive. However, as GAO noted, the strategic plan only briefly mentions
contracting and does not reflect the important role contracting plays in achieving the PBGC
mission.

In response to OIG’s queries about including contractors in the human capital strategic plan, PBGC
management stated it is responsible for managing contracts as opposed to contractors. PBGC
management explained that they are focused on attracting, retaining, developing and training federal
employees, areas covered in OPM’s human capital strategic initiative. Contractors are responsible
for the development of their own employees. PBGC management believes it is not the agency’s
responsibility to ensure that contractor employees are trained, retained and developed. In our
opinion, this response misses the point. Notwithstanding that OPM’s human capital strategic
initiative is focused on federal employees, the fact remains that PBGC’s “staff” is composed of

OIG Report Eval 2011-1/ PA-09-65                                                                     13
almost 2/3 contractors and 1/3 federal employees. Thus, whether PBGC accounts and plans for its
reliance on contractors in the human capital strategic plan it submits to OPM or in another
companion document, the planning is necessary. As part of that planning, it is PBGC’s
responsibility to ensure contract terms are followed, including those requiring particular education
and experience of contractor, as previously noted in OIG’s audit reports (see discussion below).

PBGC officials defended the decision to omit contract labor from the Human Capital Strategic plans
based on guidance provided by OPM. We noted that PBGC’s plan is consistent with OPM
guidance and that OPM is responsible for leading the Federal Government’s Strategic Management
Human Capital Initiative. If PBGC continues to believe that the Human Capital Strategic Plan is
not an appropriate document in which to document PBGC’s vision of future contract use, then the
Corporation should develop a separate plan to demonstrate the linkage between staffing and
contracting decisions at the corporate level, in light of the important role that contracting plays in
obtaining staff services for PBGC.

OIG and GAO have both concluded that contractors are an integral part of PBGC’s business
process and culture. Without contractor support, PBGC could not meet its mission. OIG and
GAO have reached the same conclusion because PBGC’s workforce is overwhelmingly comprised
of contractors. In fact, GAO provided information on the increasing number of contractors and
PBGC’s own historical records indicate the number of contractors in PBGC’s workforce is
increasing (see Appendix B for detailed chart). A failure to recognize contractors in the strategic or
human capital decision-making process presents an unrealistic portrait of PBGC’s workforce and
strategic direction.

In prior years, OIG has assessed PBGC’s contracting and issued a number of reports with findings,
primarily surrounding questionable contractor costs and contractor staff qualifications. For
example, in numerous audits, we found that certain contract employees lacked the education or
experience required by the contract (see Appendix C for specific OIG reports).

PBGC should acknowledge the critical role of contractors in future, strategic and human capital
decisions. Without the support and knowledge base that contractors provide, the agency mission
would be in jeopardy. OIG recognizes that OPM did not provide specific instructions for federal
agencies to include contractors in human capital strategic planning, but PBGC’s unique workforce
requires an innovative approach to human capital planning. PBGC management should either
develop a stand-alone human capital plan that addresses contractors or dedicate a section in the
human capital strategic plan to reflect the importance of contractors in meeting the current agency
mission and future needs.

Finding 3 - PBGC should leverage lessons learned after a prior workload surge.

PBGC continues to feel the after-effects of the influx of plans and participants that occurred
between FY 2002 and 2005. The Corporation’s fragmented and stove-piped IT environment arose
as a result of a PBGC management mandate to meet urgent mission objectives by implementing a
variety of widely dissimilar and incompatible technologies to cope with the influx of plans. At the
time, agency officials did not properly plan and implement IT systems. Rather the business of
dealing with the surge of plans and ensuring participants’ benefits were paid drove the IT



OIG Report Eval 2011-1/ PA-09-65                                                                     14
development. The result was a series of stove-pipe solutions built on unplanned and poorly
integrated technologies. Many of these technologies are still relied on by PBGC today.

As part of our review, we found that PBGC OIT and the business units had not comprehensively
assessed the impact that the previous influx had on system infrastructure, design, configuration,
storage capacity, and other strategic areas. This assessment is important if PBGC is to avoid
repeating the problems created during the prior workload surge. At that time, short term decisions
made in support of the agency mission superseded proper IT planning.

The FY 2009 PBGC FISMA report states that PBGC’s IT security leaves participants’ personally-
identifiable information (PII) at risk. PBGC is responsible for the current and future pensions of
about 1,476,000 people. OIG has reported that:

    •   Significant deficiencies were present within PBGC’s information security for the past eight
        years as noted in the annual financial statement audit reports.6
    •   High and medium vulnerabilities on the PBGC network were identified by security scans
        completed by OIG in FY 2008 and 2009 and some of the vulnerabilities present in FY 2008
        reappeared in FY 2009.7 FY 2010 vulnerability and penetration testing showed similar
        results.
    •   Significant deficiencies were identified in: 1. Entity-wide security program planning and
        management, 2. Access controls and configuration management, and 3. Integrated financial
        management systems as reported in the Report on Internal Controls related to PBGC’s FY
        2010 and 2009 financial statements.8
    •   Weaknesses were noted in encryption, incident reporting, and system documentation as
        noted in OIG’s FY 2009 FISMA report.9

PBGC has the opportunity to use the influx of FY 2002 – 2005 as a dry run from which to learn
lessons that can be used in the event of a future workload surge. However, to date, the Corporation
has not adequately considered ways to mitigate the types of problems that were previously
encountered. As a result, the planning and resource documents prepared by OIT and the business
units do not directly address actions that PBGC could take to avoid repeating the mistakes of the
past.




6
 “Audit of the Pension Benefit Guaranty Corporation’s FY 2010 and 2009 Financial Statements,” AUD-2011-2/FA-
10-69-1 http://oig.pbgc.gov/audit/2011/pdf/FA-10-69-1.pdf
7
 “Fiscal Year 2009 Vulnerability Assessment, Penetration Testing, and Social Engineering Report,” EVAL-2010-
6/FA-09-64-6, March 2, 2010 http://oig.pbgc.gov/audit/2010/pdf/FA-09-64-6.pdf
8
 “Report on Internal Controls Related to the Pension Benefit Guaranty Corporation’s Fiscal Year 2010 and 2009
Financial Statements Audit,” AUD-2011-3/FA-10-69-2, November 12, 2010 http://oig.pbgc.gov/audit/2011/pdf/FA-
10-69-2.pdf
9
 “Fiscal Year (FY) 2009 Federal Information Security Management Act (FISMA) Independent Evaluation Report,”
November 18, 2009 http://oig.pbgc.gov/audit/2010/pdf/fisma.pdf.

OIG Report Eval 2011-1/ PA-09-65                                                                           15
Recommendation 1:

Develop and implement a cohesive, integrated and centrally managed Workload Surge Strategy Plan
with all the roles and responsibilities of the relevant core and support functions and their inter-
relationships clearly defined (OIG Control Number PBGC-001).

PBGC Response:

Based on PBGC’s conclusion that the risk of a large influx of pension plans is lower than in
2009, PBGC proposed, as an alternative to OIG’s recommendation, modifying the existing
Large Case Working Group to handle more than just large cases. Specifically, PBGC
proposed the development of a Large Influx Working Group (LIWG) Planning Document
as a basis for alternative actions to address the recommendation. The role of the LIWG will
include:

       •   Handle other situations (such as an industry failing), in addition to individual
           large plans;
       •   Define triggers that would initiate the LIWG to plan for different circumstances;
       •   Identify dependencies and sequencing in planning (e.g. business areas first and
           then the support areas based on business area plans);
       •   Ensure support functions such as Human Resources, Facilities, Information
           Technology and Procurement have sufficient information and involvement; and
       •   Ensure contract ceilings and scopes are specifically considered in approaches.

OIG Evaluation:

It will be necessary for OIG to review the LIWG Planning Document before we can determine
whether PBGC’s proposed approach will adequately address this finding and recommendation.
Additional detail about the Corporation’s approach to the LIWG will allow us to determine whether
we can agree with PBGC’s proposed management decision.

Recommendation 2:

Coordinate the Corporation-wide development and implementation of the Workload Surge Strategy
Plan with the EMC and key department directors, to include the Director of PD and the Director
HRD. Facilitate this coordination by ensuring that the methodologies used to develop plans are
consistent and that key decisions are documented (OIG Control Number PBGC-002).

PBGC Response:

As an alternative to the recommendation, the Corporation proposed developing a Directive
to ensure there is corporate-wide understanding and vetting of the Large Influx Working
Group and planning documentation.




OIG Report Eval 2011-1/ PA-09-65                                                                 16
OIG Evaluation:

It will be necessary for OIG to review the Directive before we can determine whether PBGC’s
proposed approach will adequately address this finding and recommendation.

Recommendation 3:

Develop a workforce strategy tailored to address gaps in numbers, deployment, and alignment of the
human capital to be obtained through contracts. This strategy, which might incorporate aspects of
PBGC’s Human Capital Strategy, should reflect the importance of the contract workforce to PBGC
and support linkage of staffing and contracting decisions at the corporate level (OIG Control
Number PBGC-003).

PBGC Response:

As an alternative the Corporation proposed:

   -   Identifying contract work (not contracts) that will be relied on in large influx situations.
   -   Identifying contract work where there are limited market alternatives, hence
       requiring increased managerial awareness.
   -   Creation of a capacity model that can be used to project the impact of an influx on
       existing contracts.
   -   Annual and as needed COTR reviews of projected workloads, including an
       evaluation of existing contractors to gauge capacity.
   -   In scenarios where the Large Influx Working Group is acting, COTRs will identify
       areas that have potentially limited capacity and plan accordingly.

OIG Evaluation:

It is unclear how the Corporation will implement the alternative actions proposed. PBGC’s response
does not provide details regarding how, when and who will perform the proposed reviews and
modeling proposed. Additional detail about the Corporation’s approach will allow us to determine
whether we can agree with PBGC’s proposed management decision.




OIG Report Eval 2011-1/ PA-09-65                                                                      17
Section B - Ensuring the Feasibility of Plans and Developing Tactics to Address an
Increased Workload

PBGC did not ensure the feasibility or workability of tactics intended to be used to process
workload surges of 150,000 and 250,000 participants. For example, while PBGC leadership plans
called for modification of certain key contracts as needed to provide additional resources, the
Procurement Department was not consulted regarding the feasibility of this approach. With regard
to information technology, PBGC management has stated that adequate infrastructure is in place to
handle an influx, despite the fact that PBGC has not completed a comprehensive capacity
management plan.

Finding 4 – Plans for expanding the use of contractors should be coordinated with the
Procurement Department.

One of the major tactics that PBGC plans to use in the event of a workload surge is expanding its
workforce through modifications to current PBGC services contracts. Although the plans of several
departments called for hiring contractors to fill gaps in critical skills and competencies and, in some
cases, assumed that current contracts could be amended, the Procurement Department was not
consulted about the feasibility of these plans. PBGC officials identified multiple contracts that
would require modifications to meet increased demand for pension plan processing, to include
actuarial, investment management, and document management contracts. However, PBGC has not
developed a process for ensuring that identified contracts can be expanded as needed or that
necessary resources are available and ready to support the award and oversight of new contracts.

The Procurement Department has a significant role in the solicitation and award of contracts to
meet PBGC’s request for additional contract staff or new work, as well as modifications and
terminations of contracts. As such, PBGC departments should communicate their plans for
expanded requirements to the Procurement Department so it can determine whether new contracts
are required or existing contracts can be modified and required documents can be developed and
implemented in an appropriate and timely manner. However, our review showed that PBGC did
not adequately coordinate with the appropriate Procurement Department personnel to discuss the
methodology and procedures for modifying contracts and ensure the feasibility for plans that
depended on expanded contactor participation.

The Procurement Department can provide important insight to the workability of plans to expand
the use of contracts in the event of a workload surges. Some plans that might seem simple can
present challenges. For example, a manager’s plan to increase the number of professional staff
through modification of an existing contract would require a determination of whether the
modification was within the scope of the original contract. This determination may include
consultation with the Office of the General Counsel. Other considerations might include the
contract type to be used (e.g., labor hour or fixed price) and whether the need is a temporary or
permanent increase in workload. Thus, we concluded that PBGC plans to expand the use of
contractors in response to a workload surge should be carefully coordinated with the Procurement
Department to ensure that the plans can be carried out as designed or, alternatively, that the
necessary resources are in place for the award and oversight of new contracts.


OIG Report Eval 2011-1/ PA-09-65                                                                    18
Recommendation 4:

As part of planning for the workload surge, ensure that business units vet the feasibility of plans to
expand existing contracts with subject matter experts in the Procurement Department (OIG
Control Number PBGC-004).

PBGC Response:

As an alternative to the recommendation, the Corporation proposed incorporating contract
ceilings and scope evaluations in the Large Influx Working Group Planning Document to be
developed.

OIG Evaluation:

OIG will review the LIWG Planning Document, when developed by PBGC, to determine whether
PBGC’s proposed approach will adequately address this finding and recommendation.


Finding 5 – PBGC plans for a workload surge should include an assessment of network
capacity.

Because PBGC has not fully assessed its current capacity and future needs, to include identifying
network weaknesses and bottlenecks, uncertainty exists as to whether PBGC’s current infrastructure
can support a large influx of participants and the associated additional worksites that might be
needed. PBGC mission activities are highly dependent upon information technology, including the
business network. Development of a comprehensive IT performance and capacity management
plan would help ensure that PBGC would be able to handle a workload surge without deterioration
of service.

PBGC has not developed a capacity plan that documents the current levels of resource utilization
and service performance. For a number of years, PBGC has been operating at an “ad hoc”10 level of
performance and capacity management by adding servers and storage only to support a current
project with little regard for the long-term strategic implications. As a result, PBGC has not been
able to forecast future requirements for IT services and resources, and performance levels are at risk.

Within the last two years PBGC has recognized the limitations associated with an “ad hoc” level of
performance; in response to noted concerns, the Corporation established an enterprise architecture
group and a process to complete a capacity management plan. Further, PBGC contracted for an


10
  Initial/Ad Hoc. When users devise workarounds for performance and capacity constraints, there is very little
appreciation of the need for capacity and performance planning by the owners of the business processes. Action
taken toward managing performance and capacity is typically reactive. The process for planning capacity and
performance is informal. The understanding of current and future capacity and performance of IT resources is
limited. Control Objectives for Information and related Technology (COBIT 4.1), Manage Performance and
Capacity Maturity Model © 2007 IT Governance Institute.


OIG Report Eval 2011-1/ PA-09-65                                                                                 19
independent assessment of the database infrastructure. PBGC has begun the process of upgrading
aging infrastructure and expanding storage capacity of the network.

PBGC is also taking steps to address the issue of static storage capacity. With the addition of new
servers to house the business applications and the upgrade of network storage capacity, PBGC now
has 65 terabytes (TB) of physical disk space, of which 35 TB has been allocated for participant
storage. Presently, only 1.5 TB of the total allocated space is occupied by participant data records;
and it is estimated that the 35 TB of space is sufficient to hold data records for well over 100 million
participants. The estimate was based on raw system data calculations regarding roughly 2.5 million
participant records stored over all PBGC databases, with each participant using approximately 315
kilobytes11 (KB) of disk space.

Static storage capacity is only one piece of the overall measure of network performance and capacity.
Performance and capacity planning must also take into account the application load on the systems
and the overall performance of a business network that uses bandwidth for normal operations such
as messaging, Internet traffic, directory services, and file/print services. PBGC describes its network
architecture as both hierarchical and scalable. Essentially, the PBGC wide-area network (WAN) and
local-area network (LAN) were created so that the bandwidth/capacity available at the core cannot
be exceeded by the aggregate of the WAN links. As of October 2010, PBGC had eight remote sites
including six FBAs and two post valuation administration (PVA) sites. PBGC IT management
estimates that the network could support 28 remote sites before reaching a capacity that could
potentially cause bottlenecks and performance lags.

Based on PBGC OIT reporting, the network is utilizing 10-15% capacity with spikes approaching
40%. Nevertheless, PBGC occasionally experiences slowness during connectivity due to high CPU
load utilization. PBGC states that it also has back-up circuits in place that are not utilized and could
be quickly configured to carry network traffic in the event the primary circuit becomes overloaded.
PBGC’s network monitoring center monitors network usage and is required to alert OIT network
capacity management team when spikes hit 70%. At that point, OIT officials stated they will assess
utilization and begin to plan for adding additional network capacity.

PBGC has taken some proactive steps to ensure adequate network capacity. For example, PBGC
reports that it recently completed a project to implement an automated monitoring system for
capacity management that will produce useful metrics for the eventual development of a capacity
and performance plan. However, until that plan has been developed and implemented, PBGC lacks
assurance that its networks will be able to respond in the event of a significant workload surge.

Recommendation 5:

Develop and implement a capacity plan that documents the current levels of resource utilization and
service performance and that includes plans to ensure that the systems are ready to support
increased workloads that might occur with an influx of new plans, to include the addition of other
off-site locations such as additional FBAs (OIG Control Number PBGC-005).


11
     1,073,741,824 kilobytes = 1 terabyte



OIG Report Eval 2011-1/ PA-09-65                                                                      20
PBGC Response:

PBGC management believes that OIT is already undertaking steps to address capacity management,
as part of other OIT findings and recommendations from OIG. PBGC proposed leveraging those
existing efforts including periodic management briefings to discuss the results of the workload
modeling tool and changes in workload projections.

OIG Evaluation:

OIG concurs with this response.




OIG Report Eval 2011-1/ PA-09-65                                                             21
APPENDIX A - Scope and Methodology.
Our review was performed at the request of Senator Kohl, Chairman of the Special Committee on
Aging. We assessed the completeness, adequacy, and effectiveness of the plans and actions
developed and implemented by PBGC management to enable the Corporation to sufficiently
prepare for and manage the potential influx of defined benefit pension plans with large numbers of
participants.

The engagement was performed at the PBGC Headquarters in Washington, D.C. Our scope
included a review of the current planning activities that occurred between January 2009 and
November 2010. We were cognizant that these plans and actions we reviewed had not been
finalized and were subject to refinement and revision by PBGC management. To accomplish our
objectives we:

   •   Interviewed appropriate PBGC executive management officials and various PBGC key
       departmental officials and staff.
   •   Reviewed policies and procedures of PBGC operations related to pension plan termination
       and benefit delivery processes including human resources, inventory, information
       technology, office space, fiscal and budget management, procurement, and customer service.
   •   Reviewed and analyzed multiple documents and presentation slides obtained from various
       PBGC departments related to the preparation for the potential influx of pension plans
       including the:
           ¾ Analysis of the major industrial sectors being monitored by DISC
           ¾ Analysis of the impact on resources (human, technology, capital and infrastructure)
           ¾ PBGC Headquarters and FBA workload planning and tracking
           ¾ Large Case Working Group Documents
           ¾ “What If” scenarios, lessons learned, after action plans, and summary of resources
           ¾ List of pension plans approved for terminations as of July 31, 2009 and tracking of
               pension plans undergoing various stages of case processing towards termination as
               of June 15, 2009
           ¾ Narrative of pension plan case processing from monitoring by DISC to termination
               valuation and benefit payment processing by BAPD as provided by the Benefit
               Determination Cycle manual
           ¾ Status and progress of PBGC customer call service including reviewing the COO
               monthly statistics, participant caller survey, and call center metrics
           ¾ Various procurement contracts (competitive, indefinite delivery indefinite quantity,
               and direct) related to:
                   9 providing services to PBGC such as actuarial, data administration and
                       management, information systems management, audit, legal, investment, and
                       benefit payment
                   9 capacity to expand and/or modify terms and conditions of existing contracts
                       and change clauses where applicable.

During the course of our review we became aware of concerns related to changes in contractual
labor category qualifications for the FBA and PVA remote sites. We noted that after contract award
some contractual labor category qualifications were changed via the contract modification process.

OIG Report Eval 2011-1/ PA-09-65                                                                 22
Based on our discussions with PBGC management, the Corporation solicited a contractor to
provide a thorough and objective assessment of PBGC practices associated the acquisition, planning
and contract administration for the remote site contracts. The resulting report titled “Lessons
Learned Analysis of Labor Category Changes” was issued on October 29, 2010. The report
confirmed OIG’s initial observations and made fourteen recommendations for improvement in
PBGC’s contract modification process.

This evaluation was performed in accordance with standards established by the President’s Council
on Integrity and Efficiency Quality Standards for Inspections, January 2005 and in accordance with the
Office of Inspector General (OIG) policies and procedures, specifically the OIG Audit Manual.




OIG Report Eval 2011-1/ PA-09-65                                                                     23
    APPENDIX B – Federal vs. Contract Employees
Total Number of PBGC Federal and Contract Employees, FY 2000-2007 and 2009

                                         2000
                                                                                                   1768
                                         1800
                                                                                          1639
                                         1600
              Number of PBGC Employees




                                                                                                           1502
                                                                        1342    1331                                1365
                                         1400
                                                               1248
                                         1200

                                         1000           919                                                       865
                                                  791                          776               822      811
                                                      775   773                        784
                                          800 763                     754

                                          600

                                          400

                                          200

          Federal   0
          Employees
                                                2000   2001   2002     2003     2004   2005       2006     2007    2009
          Contract
          Employees                                                         Fiscal Year




    Note: Historical PBGC data 2000-2007 – source GAO report GAO-08—871.
         2009 data was provided by PBGC Human Resources Department and Budget Department,
         as of June 2009.
         PBGC contract employee data for fiscal year 2008 was not available.
                                                        




    OIG Report Eval 2011-1/ PA-09-65                                                                                       24
APPENDIX C– OIG Contract Audit Reports.   

   •   Management Letter - Spectrum International, Inc., September 30, 2008

   •   Management Letter – Paragon Technology Group, Inc. and TechGuard Security, LLC,
       September 25, 2008

   •   “Independent Accountants’ Report On Applying Agreed-Upon Procedures for Costs
       Incurred by Keane Federal Systems, Inc. Under Contract No. PBGC01-CT-04-0687 for The
       Fiscal Years Ended September 30, 2004, 2005 & 2006,” PBGC OIG Report No. 2007-
       15/CA-0039, September 27, 2007.

   •   “Incurred Cost Audit of Integrated Management Resource Group under Contract No.
       PBGC01-CT-03-0652 for the Fiscal Years October 1, 2002 through September 30, 2006,”
       PBGC OIG Report No. 2007-8/CA-0033-1, September 26, 2007.

   •   “Agreed-upon Procedures Report for Costs Incurred by Paragon under Contract No.
       PBGC01-CT-06-0757 for Fiscal Years Ended September 30, 2006 and 2007,” PBGC OIG
       Report No. 2008-13/CA-0046, September 30, 2008.

   •   “Agreed-upon Procedures Report for Costs Incurred by Spectrum International, Inc. under
       Contract No. PBGC01-CT-03-0654 for Fiscal Years Ended September 30, 2006 and 2007,”
       PBGC OIG Report No. 2008-12/CA-0050, September 30, 2008.

   •   “Agreed-upon Procedures Report for Costs Incurred by TechGuard under Contract No.
       PBGC01-CT-05-0739 for Fiscal Years Ended September 30, 2006 and 2007,” PBGC OIG
       Report No. 2008-11/CA-0047, September 30, 2008.




OIG Report Eval 2011-1/ PA-09-65                                                             25
APPENDIX D– PBGC Response  




OIG Report Eval 2011-1/ PA-09-65   26
OIG Report Eval 2011-1/ PA-09-65   27
OIG Report Eval 2011-1/ PA-09-65   28
OIG Report Eval 2011-1/ PA-09-65   29
OIG Report Eval 2011-1/ PA-09-65   30
                                     


OIG Report Eval 2011-1/ PA-09-65   31
OIG Report Eval 2011-1/ PA-09-65   32
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
